No. 20-7372

In the Supreme Court of the United States
Terry Lee Ockert, Jr.,
Petitioner,
v.
United States of America,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
Certificate of Compliance
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the Federal
Public Defender’s Office for the Districts of Colorado And Wyoming as Amicus
Curiae in Support of Petitioner contains 5003 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 9, 2021.
/s/ Dean Sanderford_____________________
Dean Sanderford
Office of the Federal Public Defender
for the Districts of Colorado and Wyoming
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002
Dean_Sanderford@fd.org
Counsel of Record

